TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                   A Combination of Legislative Actions and
                  Increased IRS Capability and Capacity Are
                  Required to Reduce the Multi-Billion Dollar
                         U.S. International Tax Gap



                                        January 27, 2009

                             Reference Number: 2009-IE-R001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 January 27, 2009


 MEMORANDUM FOR COMMISSIONER SHULMAN


 FROM:                         Philip Shropshire
                               Director for Inspections and Evaluations

 SUBJECT:                      Final Evaluation Report - A Combination of Legislative Actions and
                               Increased IRS Capability and Capacity Are Required to Reduce the
                               Multi-Billion Dollar U.S. International Tax Gap
                               (Project # 200110IE002, Previously Audit #200730027)

 This report presents the results of our review of the IRS actions to address the international tax
 gap. The overall objective of this review was to identify the accuracy and reliability of estimates
 of the size of the U.S. international tax gap, whether the IRS is planning to develop its own
 measurement, and the efforts to reduce the international tax gap.

 Impact on the Taxpayer
 The international tax gap is defined as taxes owed—but not collected on time—from a United
 States (U.S.) person1 or foreign person2 whose cross-border transactions are subject to U.S.
 taxation. The IRS has not developed an accurate and reliable estimate of the international tax
 gap and has no plans to comprehensively measure it, but it is making the reduction of the
 international tax gap a top priority. Some non-IRS estimates place the international tax gap at




 1
   A U.S. person is defined by the Internal Revenue Code (I.R.C.) §7701(a)(30) as a citizen or resident of the United
 States, domestic partnership, domestic corporation, any estate (not defined as a foreign estate under
 I.R.C. §7701(a)(31)), and any trust, if administered by a U.S. court or supervised by one or more U.S. persons.
 2
   A foreign person includes a nonresident alien individual, a foreign corporation, a foreign partnership, a foreign
 trust, a foreign estate, and any other person who is not a U.S. person.
                    A Combination of Legislative Actions and Increased IRS
                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                 Dollar U.S. International Tax Gap


$100 billion or more annually.3 The result is that compliant taxpayers have additional tax burden
when noncompliant taxpayers do not pay their legal obligations.

Synopsis
The IRS estimated that the entire tax gap for Tax Year 2001 was $345 billion. However, the IRS
has not developed an estimate for the international tax gap. Non-IRS estimates of the
international tax gap range from $40 billion to $123 billion. While there might be overlap
between the IRS tax gap estimate and the international tax gap, it is doubtful that the $345 billion
estimate includes the entire international tax gap.
The primary reason for this conclusion is that identifying hidden income within international
activity is very difficult and time–consuming.4 Furthermore, the IRS did not measure for the
international tax gap component in the Individual National Research Project (NRP) estimate for
the Tax Year 2001 tax gap. Therefore, it is unlikely that hidden offshore income is
comprehensively included in the IRS tax gap estimates. In fact, the IRS’s Research, Analysis
and Statistics (RAS) organization reasoned that because of cost, staffing, and technical
limitations, an NRP type of direct measurement is unfeasible. However, in an attempt to learn
more, the IRS has other initiatives underway.
Addressing the international tax gap without the benefit of an NRP type approach is a significant
challenge. An important fact to consider is that a prime use of NRP data is to develop algorithms
to better identify noncompliant taxpayers and not burden compliant taxpayers. This allows the
IRS to make data-driven resource allocation decisions to address patterns of noncompliance.
When NRP information is not available, other methods to detect noncompliance are required. As
a result, the IRS must allocate its international resources based on factors such as employing
previously successful compliance actions, acting on promising initiatives, and sometimes relying
on anecdotal evidence.
Consequently, there is less certainty that international tax compliance resources are efficiently
allocated to address noncompliance. In fact, the Government Accountability Office determined
that about half of offshore examinations resulted in an additional assessment compared to about
70 percent of non-offshore examinations that result in additional assessments.
Nevertheless, over the past few years, the IRS has taken actions to better coordinate international
tax compliance issues. First, in September 2007, the Service-wide Approach to International Tax
Administration was announced. The approach describes the three strategic goals of 1) improving

3
  U.S. Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations. 2008. Tax Haven Banks and U.S. Tax Compliance. Washington D.C. July 17. Accessed online at:
http://hsgac.senate.gov/public/_files/071708PSIReport.pdf.
4
  See the GAO audit report TAX ADMINISTRATION: Additional Time Needed to Complete Offshore Tax Evasion
Examinations (Reference Number GAO-07-237, dated March 2007).
                                                                                                          2
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap


taxpayer service, 2) enhancing enforcement and modernizing the IRS for improving voluntary
compliance with international tax provisions, and 3) reducing the tax gap attributable to
international transactions. The Service-wide Approach to International Tax Administration is
supported by detailed tracking plans for the strategic accomplishments and initiatives.
Next, the IRS Commissioner has stated that international issues are a top priority during his
tenure. Finally, additional changes were made by modifying organizational structures, changing
processes to facilitate improving compliance, investing in human capital and information
technology, and increasing cooperation and outreach efforts to foreign governments. Together,
these changes should provide the IRS with additional capability and capacity to address
international tax compliance.
Beyond the IRS, legislation has been introduced to address tax haven abuse. As with most
legislation, it is difficult to determine whether the proposed legislation will become law and
whether it would achieve its intended purpose if implemented. Additionally, the Senate Finance
Committee and the Senate’s Permanent Subcommittee on Investigations both held hearings in
July 2008, advocating more tools for the IRS to combat offshore tax evasion. While there is no
single solution to addressing the international tax gap, the combination of additional compliance
tools and increased IRS capability and capacity promises to improve international tax
compliance.

Recommendation
We made no recommendations in this report. However, an advanced copy of the report was
shared with key IRS management officials prior to issuance.
Please contact me at (202) 927-7048 or Kevin P. Riley, Inspections and Evaluations, at (972)
249-8355 if you have questions.


Attachment




                                                                                                3
                        A Combination of Legislative Actions and Increased IRS
                     Capability and Capacity Are Required to Reduce the Multi-Billion
                                     Dollar U.S. International Tax Gap




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Accuracy and Reliability of the Estimates of the
          International Tax Gap ...................................................................................Page 4
          IRS Has No Detailed Plans to Comprehensively Measure
          the International Tax Gap with a National Research
          Project Effort.................................................................................................Page 5
          IRS Challenges and Efforts to Reduce the International
          Tax Gap.........................................................................................................Page 5

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Service-wide Approach to International
          Tax Administration .......................................................................................Page 22
          Appendix VI – Selected International Reports .............................................Page 25
          Appendix VII – International Tax Gap and Components.............................Page 27
            A Combination of Legislative Actions and Increased IRS
         Capability and Capacity Are Required to Reduce the Multi-Billion
                         Dollar U.S. International Tax Gap




                          Abbreviations

BEA                Bureau of Economic Analysis
EDB                Exporter Data Base
GAO                Government Accountability Office
IIF                Industry Issue Focus
IPOC               International Planning and Operations Council
I.R.C.             Internal Revenue Code
IRS                Internal Revenue Service
JITSIC             Joint International Tax Shelter Information Centre
LMSB               Large and Mid-Size Business
MLAT               Mutual Legal Assistance Treaty
NRP                National Research Project
OECD               Organization for Economic Cooperation and Development
RAS                Research, Analysis, and Statistics
SME                Small and Medium-Sized Enterprise
TECS               Treasury Enforcement Communications System
TIEA               Tax Information Exchange Agreements
TIGTA              Treasury Inspector General for Tax Administration
TY                 Tax Year
U.K.               United Kingdom of Great Britain
U.S.               United States of America
                      A Combination of Legislative Actions and Increased IRS
                   Capability and Capacity Are Required to Reduce the Multi-Billion
                                   Dollar U.S. International Tax Gap




                                               Background

The Permanent Subcommittee on Investigations of the United States (U.S.) Senate Committee on
Homeland Security and Governmental Affairs estimates that the international tax gap is
$100 billion or more annually.1 The international tax gap
is defined as taxes owed, but not collected on time, from a The international tax gap is
U.S. person2 or foreign person3 whose cross-border          defined as taxes owed, but not
income is subject to U.S. taxation.                         collected on time, from a
There are two aspects of international taxation. First,      United States (U.S.) person or
U.S. persons are taxed on their worldwide income.            foreign person when there is
Second, foreign persons are taxed on their U.S. source       cross-border income subject to
income when they are effectively connected to a U.S.         U.S. taxation.
                  4
trade or business. The international tax gap encompasses
all revenue losses resulting from noncompliance with the U.S. tax laws due to international
transactions. These include:
    •    Taxpayer error;
    •    Conflicting legal interpretations;
    •    Misinterpretation of the facts; and
    •    Outright tax evasion.
International taxation reflects the complexity of the global economy. The U.S. international tax
laws address a multitude of potentially taxable transactions. These transactions are engaged in

1
  U.S. Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations. 2008. Tax Haven Banks and U.S. Tax Compliance. Washington D.C. July 17. Accessed online at:
http://hsgac.senate.gov/public/_files/071708PSIReport.pdf.
2
  A U.S. person is defined by the Internal Revenue Code (I.R.C.) §7701(a)(30) as a citizen or resident of the United
States, domestic partnership, domestic corporation, any estate (not defined as a foreign estate under
I.R.C. §7701(a)(31)), and any trust, if administered by a U.S. court or supervised by one or more U.S. persons.
3
  A foreign person includes a nonresident alien individual, a foreign corporation, a foreign partnership, a foreign
trust, a foreign estate, and any other person who is not a U.S. person.
4
  Foreign persons not effectively connected with a U.S. trade or business who earn income from passive investment
activities in the U.S. are taxed on fixed or determinable income; certain gains from disposal of timber, coal, or
domestic iron with a retained economic interest; gains relating to contingent payments received from the sale or
exchange of patents, copyrights, and similar intangible property; and sales of interests in U.S. real property. Foreign
investors with passive investments as a general rule are not taxed on interest on deposits, portfolio interest, or capital
gains on securities or other personal property.


                                                                                                                 Page 1
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



by millions of entities worldwide, including large multinational enterprises, U.S.-based
companies operating internationally, foreign-based companies operating in the U.S., nonresident
individual investments in the U.S., individual U.S. investors’ international investments,
individual U.S. residents residing abroad, and non-resident aliens residing in the U.S. Beyond
the tax laws, the U.S. has nearly 60 tax treaties with other nations that can modify and/or change
the tax law. The U.S. international tax gap is a critical issue for tax administration because
international business and investments in the U.S. has grown from nearly $188 billion in 1976 to
over $14.5 trillion in 2007, while U.S. business and investment overseas grew from nearly
$368 billion to nearly $15 trillion over the same period.5
This review was performed at the IRS Large and Mid-Size Business (LMSB) Division
Headquarters in Washington, D.C., in the Office of the Deputy Commissioner (International) and
the Treasury Inspector General for Tax Administration’s Los Angeles Office during the period
March 2007 through September 2008. We conducted this evaluation in accordance with the
President’s Council on Integrity and Efficiency Quality Standards for Inspections.6 Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
  See Table 2. International Investment Position of the United States at Year End, 1976-2007, U.S. Department of
Commerce, Bureau of Economic Analysis (BEA). Accessed online at: http://www.bea.gov/international/index.htm
6
  The evaluation was also performed in accordance with Generally Accepted Government Auditing Standards.
These standards require that we plan and perform the project to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions, based on our evaluation objectives.
                                                                                                            Page 2
                   A Combination of Legislative Actions and Increased IRS
                Capability and Capacity Are Required to Reduce the Multi-Billion
                                Dollar U.S. International Tax Gap




                                  Results of Review

The IRS estimated that the entire tax gap for Tax Year 2001 was $345 billion. However, the IRS
has not developed an estimate for the international tax gap. Non-IRS estimates of the
international tax gap range from $40 billion to $123 billion. While there might be overlap
between the IRS tax gap estimate and the international tax gap, it is doubtful that the $345 billion
estimate includes the entire international tax gap. The primary reason for this conclusion is that
identifying hidden income within international activity is very difficult and time-consuming.7
Furthermore, the IRS did not measure for the international tax gap component in the Individual
National Research Project (NRP) estimate for the Tax Year 2001 tax gap. Therefore, it is
unlikely that hidden offshore income is comprehensively included in the IRS tax gap estimates.
Nevertheless, over the past few years, the IRS has taken actions to better coordinate international
tax compliance issues. First, in September 2007, the Service-wide Approach to International Tax
Administration was announced. The approach describes the three strategic goals of 1) improving
taxpayer service, 2) enhancing enforcement and modernizing the IRS for improving voluntary
compliance with international tax provisions, and 3) reducing the tax gap attributable to
international transactions. Next, the IRS Commissioner has stated that international issues are a
top priority during his tenure. Finally, additional changes were made by modifying
organizational structures, changing processes to facilitate improving compliance, investing in
human capital and information technology, and increasing cooperation and outreach efforts to
foreign governments. Together, these changes should provide the IRS with additional capability
and capacity to address international tax compliance.
Beyond the IRS, legislation has been introduced to address tax haven abuse. As with most
legislation, it is difficult to determine whether the proposed legislation will become law and
whether it would achieve its intended purpose if implemented. Additionally, the Senate Finance
Committee and the Senate’s Permanent Subcommittee on Investigations both held hearings in
July 2008, advocating more tools for the IRS to combat offshore tax evasion. While there is no
single solution to addressing the international tax gap, the combination of additional compliance
tools and increased IRS capability and capacity promises to improve international tax
compliance.




7
 See the GAO audit report TAX ADMINISTRATION: Additional Time Needed to Complete Offshore Tax Evasion
Examinations (Reference Number GAO-07-237, dated March 2007).
                                                                                                Page 3
                      A Combination of Legislative Actions and Increased IRS
                   Capability and Capacity Are Required to Reduce the Multi-Billion
                                   Dollar U.S. International Tax Gap



Accuracy and Reliability of the Estimates of the International Tax Gap
The IRS has not developed an accurate and reliable
estimate of the international tax gap, based on empirical       No one, including the IRS, has
evidence.8 Some non-IRS estimates were developed for            an accurate and reliable
                                                                estimate of the U.S. international
different international tax components. More specifically,      tax gap.
estimates of the U.S. international tax gap due to tax
haven9 activity range from $40 billion to $70 billion.
Additional revenue losses due to transfer pricing activity range from $2.8 billion to $53 billion
annually.10 When these estimates are combined, the total international tax gap ranges from
$40 billion to $123 billion annually.
In July 2008, the Permanent Subcommittee on Investigations of the U.S. Senate’s Committee on
Homeland Security and Governmental Affairs estimated that the international tax gap is
$100 billion or more annually. These estimates are educated guesses based on a few available
figures, the estimators’ experience, and assumptions—rather than being derived from direct
measurement. Added to this, the estimates might not include other international tax gap
components, such as abusive tax shelters that include tax havens—which would add billions of
dollars to the total—or the compliance of foreign taxpayers with U.S. tax law.
In comparison, the IRS estimates that the overall tax gap for Tax Year (TY) 2001 is $345 billion.
In theory, the IRS tax gap estimate includes the international tax gap numbers. However, based
on the broad range of the international tax gap estimate, the $345 billion estimate is likely not
all-inclusive.
The primary reason for this conclusion is that identifying hidden income within international
activity is very difficult and time-consuming.11 Furthermore, the IRS did not measure for the
international tax gap component in the Individual National Research Program (NRP)12 estimate

8
  The IRS has not performed a National Research Project (NRP) on individual or business international taxes. An
NRP is a statistical sample of returns that may be examined to determine compliance.
9
  The Organization for Economic Cooperation and Development (OECD) utilizes four criteria to identify a
jurisdiction as a tax haven: 1) no or only nominal taxes (generally or in special circumstances); 2) a lack of
transparency; 3) laws or administrative practices that prevent the effective exchange of information for tax purposes;
and 4 ) no requirement that foreign activity be substantial. Although the first criterion is a necessary condition, it is
insufficient by itself to identify a jurisdiction as a tax haven. The other criteria reflect conditions that, in conjunction
with no or nominal tax, enable a jurisdiction to pursue harmful tax competition and effectively obstruct authorities in
other countries from accessing information for tax purposes.
10
   See the TIGTA audit report Current Trends in the Administration of International Transfer Pricing by the Internal
Revenue Service (Reference Number 2003-30-174, dated September 2003).
11
   See the GAO audit report TAX ADMINISTRATION: Additional Time Needed to Complete Offshore Tax Evasion
Examinations (Reference Number GAO-07-237, dated March 2007).
12
   The National Research Program conducts studies to produce timely, reliable information about the filing of tax
returns, the reporting of income, deductions, taxes credits, and payment of tax liabilities. The information is a
                                                                                                                   Page 4
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



for the Tax Year 2001 tax gap. Therefore, it is unlikely that hidden offshore income is
comprehensively included in the IRS tax gap estimates. In fact, the IRS’s Research, Analysis
and Statistics (RAS) organization reasoned that because of cost, staffing, and technical
limitations, an NRP type of direct measurement is not feasible. In an attempt to learn more, the
IRS has other initiatives underway.

IRS Has No Detailed Plans to Comprehensively Measure the
International Tax Gap with a National Research Project Effort
The IRS’s RAS organization has no plans to comprehensively measure the international tax gap.
The Director of RAS stated that an NRP direct-measurement type study was currently not
technically feasible due to the challenges in identifying returns with offshore activities, because
many of the taxpayers are purposely avoiding detection. Other challenges to such a study are
costs and limited staffing.
Nevertheless, the IRS has three initiatives underway to learn more about the international tax gap
and some of its components. First, the IRS is gathering information about foreign-earned income
of U.S. persons. To accomplish this, the new NRP of U.S. Individual Income Tax Returns
(Form 1040) will sample 450 returns with a Foreign Earned Income (Form 2555) schedule
attached to determine reporting compliance. Second, in September 2007, the LMSB Division
announced a plan called the Service-wide Approach to International Tax Administration. The
plan included an initiative to collaborate with RAS to identify and develop baselines and
measures to better assess the international/U.S. territories tax gap and the progress in reducing it.
Third, there is a budget request to match foreign income documents13 with nonresident income
tax returns.
Together, these initiatives should provide better information about international tax compliance.
While these efforts might not lead to a comprehensive international tax gap measurement, they
should lead to increasing the capability and capacity of the IRS to focus on significant areas of
noncompliance.

The IRS Challenges and Efforts to Reduce the International Tax Gap
International tax administration is highly complex, reflecting the complexity of the global
economy. The U.S. international tax law must address a multitude of potentially taxable
transactions. These transactions are engaged in by millions of entities worldwide, including
large multinational enterprises, U.S.-based companies operating internationally, foreign-based


service-wide resource that will support a variety of user needs, including development of strategic plans and
customer-focused programs, products, and services.
13
   The foreign information return document is Form 1042-S, and the nonresident tax return is Form 1040NR and
Form 1042.
                                                                                                         Page 5
                                    A Combination of Legislative Actions and Increased IRS
                                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                                 Dollar U.S. International Tax Gap



companies operating in the U.S., nonresident individual investments in the U.S., individual U.S.
investors’ international investments, individual U.S. residents residing abroad, and non-resident
aliens residing in the U.S. Beyond the tax laws, there are nearly 60 tax treaties with other
nations that can modify and/or change the tax law. The U.S. international tax gap is a critical
issue for tax administration because international business and investments in the U.S. has grown
from nearly $188 billion in 1976 to over $14.5 trillion in 2007, while U.S. business and
investment overseas grew from nearly $368 billion to nearly $15 trillion over the same period.14
     Figure 1: U.S. Business and Investment Overseas and Foreign Business and
                          Investment in the U.S., 1976 - 2007

                $15,000
                $12,500
     Billions




                $10,000
                 $7,500
                 $5,000
                 $2,500
                     $0
                          1976

                                   1978


                                          1980

                                                 1982


                                                        1984

                                                               1986


                                                                      1988

                                                                             1990


                                                                                       1992

                                                                                              1994


                                                                                                     1996

                                                                                                            1998

                                                                                                                   2000


                                                                                                                          2002

                                                                                                                                 2004


                                                                                                                                        2006
                                                                                    Years
                                                  U.S. Investm ent Overseas           Foreign Investm ent in the U.S.


Source: TIGTA Analysis of BEA Data on International Investment Position of the U.S. at Yearend, 1976-2007.15

Growth in International Activity: The tremendous growth in offshore and international
activity is a relatively recent phenomenon, even though corporate and individual use of tax
havens started in the 1950s. Since about 1980, the legal and technological barriers to the
movement of capital, goods, and services have declined dramatically.16 Technological advances
have provided opportunities for offshore investments that were once only possible for large
corporations and wealthy individuals.




14
   See footnote 5.
15
   Ibid.
16
   Guttentag, Joseph and Reuven Avi-Yonah. “Chapter 5 - Closing the international tax gap” Bridging the Tax
Gap: Addressing the Crisis in Federal Tax Administration. Edited by Max B. Sawicky. Economic Policy Institute.
Washington D.C. 2005.
                                                                                                                                        Page 6
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



One indicator of the increasing offshore
                                                    Figure 2: Individual Income Tax Returns
investment activity is the rise in the
                                                      Filing Form 1116, Foreign Tax Credit
number of individual income taxpayers
                                                                  (1981 – 2001)
filing the Foreign Tax Credit (Form
1116) (see Figure 2). The Form 1116 is                               5,000,000
used by taxpayers to compute the
                                                                     4,000,000




                                                     Returns Filed
amount of allowable foreign tax credit
they can offset against their U.S.                                   3,000,000
income taxes for foreign taxes paid on                               2,000,000
income earned abroad. In 1981,
                                                                     1,000,000
approximately 270,000 individuals filed
Form 1116. In 2001, just 20 years later,                                    0
almost 4.3 million individuals filed a                                           1981   1987    1991      1996   2001
Form 1116. Some other examples of                                                              Tax Year
international growth are:
                                                             Source: TIGTA Analysis of IRS RAS Division
     •   The 20-fold increase in the
         estimated number of multinational enterprises from 3,000 in 1990 to well over 63,000 in
         2007.

     •   The Commerce Department's Exporter Data Base (EDB)17 shows that in 2005, the total
         number of U.S. firms exporting goods stood at 239,094. More specifically, the number
         of small and medium-sized enterprises18 (SMEs) that export merchandise more than
         doubled between 1992 and 2005.19 The known export revenue of SMEs rose from $102.8
         billion in 1992 to $228.5 billion in 2005. SMEs were responsible for 29.1 percent of
         goods exported in 2005.
     •   The number of filings of Form 1120, U.S. Corporation Income Tax Return containing
         international features, has increased 87 percent from 2002 to 2007.
     •   While major multinational companies have traditionally generated cross-border trade,
         growing industrial globalization enabled by technology, has made it easier for small and
         mid-market businesses to compete across borders.
     •   Total income reported for 2005 from active foreign corporations owned by U.S.
         taxpayers exceeded $1.8 trillion.




17
   The EDB captures companies exporting merchandise, but not firms that export only services.
18
   A small or medium sized enterprise is defined as a company with fewer than 500 workers.
19
   From about 108,000 firms in 1992 to over 232,000 firms in 2005.
                                                                                                                        Page 7
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap



   •   U.S.-source income of $293 billion was sent offshore for tax year 2003; 68.4 percent, or
       $200.5 billion, flowed to foreign corporations through both Qualified Intermediaries and
       U.S. Withholding Agents, with only 1.4 percent or $3 billion withheld.
Tax policy and administration efforts require a balance regarding what information is needed to
enforce tax laws without unduly burdening international business and investments. Achieving
this balance is further complicated by taxpayers who intentionally place assets in locations with
bank secrecy laws. Due to this, the IRS at times has limited access to information sources
concerning taxpayers in these jurisdictions. While the IRS has the capability to obtain
significant amounts of information from many of these jurisdictions, it is handicapped by time-
consuming requirements on a case-by-case basis to specifically identify the taxpayers under
investigation. The time and access limitations encountered in international tax administration
create significant differences between the domestic and international tax administration
environments.
Therefore, the IRS has developed international compliance programs with different resource
allocation approaches by using various compliance case identification information sources.
Examples of these information sources are referrals from informants, criminal investigations, the
Joint International Tax Shelter Information Centre (JITSIC), and other tax treaty and bilateral
exchanges of information agreements. Other compliance cases are also identified through tax
return data analysis and other information reporting regimes such as the Qualified
Intermediary and U.S. Withholding Agent Programs. However, using these case identification
sources presents challenges in measuring the wider compliance effect. Several major
international tax compliance issues have come to the public’s attention from investigations and
the media reports:
   •   In 2000, Enron Corporation established 441 special-purpose offshore entities in the
       Cayman Islands.
   •   In 2002, the IRS estimated that there might be as many as 1 million U.S. taxpayers who
       have signature authority or control a foreign bank account and might be required to file
       Form TD F 90-22.1, Report of Foreign Bank and Financial Accounts, although it
       received only 177,151 reports in 2001.
   •   In 2003, the IRS estimated that 500,000 U.S. taxpayers had offshore bank accounts and
       were accessing the funds with offshore credit cards.
   •   In 2004, data from the Department of Commerce’s Bureau of Economic Analysis (BEA)
       reported that profits of foreign subsidiaries of U.S. corporations based in 18 tax haven
       countries grew 70 percent from $88 billion in 1999 to $149 billion in 2002. The
       $149 billion reported in 2002 in the 18 tax haven countries accounts for 58 percent
       ($149 billion / $255 billion) of profits of foreign subsidiaries of U.S. corporations
       worldwide.

                                                                                             Page 8
                    A Combination of Legislative Actions and Increased IRS
                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                 Dollar U.S. International Tax Gap



     •   In 2005, the Tax Justice Network estimated that assets held offshore by Americans of
         high net worth exceeded $1 trillion.
     •   In February 2008, published reports identified a global tax scandal after a former
         employee of LGT Bank in Liechtenstein sold customer information to the German
         authorities that identified about 1,400 persons who were using accounts at the bank to
         evade taxes.
     •   In May 2008, published reports identified a second global tax scandal when the U.S.
         arrested a private banker formerly employed by UBS AG on charges of having conspired
         with a U.S. citizen and a business associate to defraud the IRS of $7.2 million in taxes on
         $200 million of assets hidden in offshore accounts in Switzerland and Liechtenstein.
     •   In July 2008, the GAO reported that a five-story building in the Cayman Islands, Ugland
         House, had 18,857 business tenants. The estimate is that about 9,000 of those entities
         were U.S.-related.
The IRS recognizes that globalization presents challenges for tax administration. The IRS is
addressing these challenges by establishing international tax compliance as a strategic priority,
modifying organizational structures, changing processes to facilitate improving compliance,
investing in human capital and information technology, and increasing cooperation and outreach
efforts with foreign governments.
Establishing International Tax Compliance as a Strategic Priority
The IRS is establishing international tax compliance as a strategic priority, based on several
actions that have been taken. First, IRS Commissioner Douglas Shulman is making reducing the
international tax gap a top priority. In testimony before the Senate’s Permanent Subcommittee
on Investigation, Commissioner Shulman stated:
         I have made international issues a top priority for the IRS for my five-year tenure as
         Commissioner. There are a number of activities and initiatives underway, and more in
         the works, at the IRS to help ensure we are adapting to the global economy. In some
         cases, this involves proactive dialogue with foreign tax administrators and multinational
         enterprises.20
Prior to appearing before the subcommittee, the Commissioner had emphasized the importance
of international issues to the IRS in speeches before the American Bar Association and the
Federation of Tax Administrators.


20
  Written Testimony of Douglas Shulman, Commissioner of Internal Revenue, Before the Senate Committee on
Homeland Security and Government Affairs’ Permanent Subcommittee on Investigations Hearing on Tax Haven
Financial Institutions: Their Formation and Administration of Offshore Entities and Accounts for Use by
U.S. Clients, July 17, 2008, page 1.
                                                                                                    Page 9
                   A Combination of Legislative Actions and Increased IRS
                Capability and Capacity Are Required to Reduce the Multi-Billion
                                Dollar U.S. International Tax Gap



Second, from a strategic perspective, in August 2007, the Department of Treasury, Office of Tax
Policy, announced a revised tax gap reduction strategy21 that included six initiatives focused on
improving international and offshore compliance, along with 24 milestones. The six initiatives
are:
     1. Enhance the ability to identify and address tax schemes of businesses and individuals
        involving offshore activity, address illegitimate use of tax havens to shelter income, and
        increase information matching and examination activity for individuals abroad.
     2. Improve the alignment and allocation of service-wide resources to identify, develop, and
        resolve challenges better in the global taxation arena.
     3. Improve tax administration to deal more effectively with increased emphasis on
        globalization by all corporation and individual taxpayers.
     4. Increase industry and global issue focus by aligning resources to cases and issues with the
        highest compliance risk.
     5. Leverage the efforts of examiners as well as external partnerships with foreign tax
        administrations to identify and address emerging issues of significant compliance risk.
     6. Address offshore and cross-border compliance risks through enforcement and by issuing
        published guidance.
Modifying Organizational Structures
The Commissioner’s statements represent the latest in a series of actions over the past several
years culminating in greater prominence and coordination of international issues across the IRS.
In June 2006, the IRS created the position of Deputy Commissioner, International, in the
LMSB Division. The IRS describes the purpose of the position: “To improve oversight and
focus on global taxation issues.” The position is responsible for international service and
compliance activities across the entire IRS and serves as the U.S. Competent Authority
responsible for tax treaty administration.
Another step in the process was the announcement on September 16, 2007, of the Service-wide
Approach to International Tax Administration (see Appendix IV). The approach describes goals
for improving voluntary compliance with international tax provisions of the Internal Revenue
Code and reducing the tax gap attributable to international transactions. The new approach
envisions using cross-functional cooperation in addressing emerging international tax issues and
using tools and authorities already granted. The approach describes a three-pronged strategy,
consistent with the strategies described in the IRS strategic plan, of:
     •   Strategic Goal 1: Improving Taxpayer Service.

21
 Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance. IRS. Washington, D.C.
August 2, 2007.
                                                                                                   Page 10
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap



   •   Strategic Goal 2: Enhancing Enforcement of Tax Laws.
   •   Strategic Goal 3: Modernizing the IRS through its People, Processes, and Technology.
To achieve cross-functional cooperation envisioned in the Service-wide approach to International
Tax Administration, the International Planning and Operations Council (IPOC) was established.
The IPOC is chaired by the Deputy Commissioner, International, with executive participation
from the Small Business/Self-Employed Division, Wage and Investment Division, Tax-Exempt
Government Entities Division, Criminal Investigations Division, Office of Appeals, and Office
of Chief Counsel. The IPOC serves as the forum to develop and coordinate the Service-wide
strategy for dealing with international tax administration operational issues and significant
international tax transactions, both internally and externally, and reports to the Deputy
Commissioner for Service and Enforcement. The Council ensures that resource and operational
support issues are properly coordinated to maintain accountability of the international
enforcement and customer service strategies and initiatives. The responsibilities of the Council
are:
   •   Annual review of the Service-wide international strategy and international enforcement
       and service initiatives;
   •   Resolution of cross-business division policy and resource issues related to international
       activities and initiatives;
   •   Oversight for Service-wide international enforcement initiative; and
   •   Provide periodic reporting to the Enforcement Committee.
Changing Processes to Facilitate Improving Compliance
In addition to addressing international income tax issues through income tax examinations, the
Service-wide Approach to International Tax Administration is using other forums to resolve tax
disputes. For example, the IRS recently completed it first pre-filing agreement on international
partnerships and is working on a pre-filing agreement regarding permanent establishments. The
IRS is also piloting the process of resolving international tax issue disputes within its
Compliance Assurance Process (CAP).
On the examination front, the IRS recently introduced the Industry Issue Focus (IIF) approach to
strengthen the industry focus within the LMSB Division by strategically concentrating on high-
risk tax issues through the use of coordinating guidance and compliance activities on emerging
tax issues. The IIF approach accomplishes these results by identifying, prioritizing, analyzing,
and addressing significant compliance issues in one of three tiers. International tax issues
compose one-sixth of the 60 Tier I and Tier II issues so far identified. The IRS has also
implemented compliance activities dealing with Offshore Private Banking, Offshore Merchant
Accounts, and international compliance of Entertainers and Athletes.


                                                                                          Page 11
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



Investing in Human Capital
The IRS has implemented 5 initiatives that are leveraging its international human capital. First,
the IRS realigned its LMSB Division by changing international examiner groups from being
managed as specialty groups to being supervised by line managers so there would be greater
flexibility to employ international examiner skills. Second, managers at all levels are being
trained on the basics of international tax so that international examiner skills can be better
employed. Third, the LMSB Division is training domestic agents to examine less complex
international issues so that international examiners can focus on more complex issues. Fourth,
the LMSB Division has just-in-time training resources that can be delivered to assist tax
examiners with an international tax issue they are currently or will shortly be working on.
Finally, the Appeals Division has been restructured into two teams of International Specialists
and Economists to provide technical support to help ensure timely and consistent resolution by
appeals of international tax issues.
Investing in Information Technology
The IRS is taking several technology initiatives to address all aspects of the international tax
program. One compliance initiative is to develop a system to automatically match third party
payment information for offshore investors with income tax return information. Another multi-
purpose initiative is a proposal to bring together all the international data the IRS receives into a
single database. The database would be used for research, strategic planning, resource
allocation, and examination case selection. Several taxpayer service initiatives are focusing on
upgrading service to taxpayers with international issues. These include exploring options to
provide low/no-cost telephone services to U.S. taxpayers living abroad, maintaining and
improving the content of the IRS’s international websites on irs.gov, continuing development of
the online International Technical Digest, and making improvements to the Treasury
Enforcement Communications System (TECS) for information regarding passports and U.S.
border entries and exits.
Increasing Cooperation and Outreach Efforts to Foreign Governments: Outreach and
cooperation with U.S. treaty partners and other governments is an integral part of the Service-
wide Approach to International Tax Administration. The IRS participates in Organization for
Economic Co-operation and Development (OECD) working groups concerning a broad spectrum
of issues, such as the model tax treaty, international transfer pricing, and tax avoidance and
evasion. The IRS also regularly participates in the Leeds Castle Group22 discussions as well as
being a participant in the JITSIC with Australia, Canada, Japan, and the U.K. JITSIC has
allowed participants to cooperatively identify and challenge abusive tax schemes and
transactions.


22
  The Leeds Castle Group consists of the tax administrators of Australia, Canada, China, France, Germany, India,
Japan, South Korea, the United Kingdom (U.K.), and the U.S.
                                                                                                         Page 12
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



In addition to these activities, the U.S. has numerous Tax Information Exchange Agreements
(TIEAs) and Mutual Legal Assistance Treaties (MLATs) and tax treaties. The U.S. has
20 TIEAs that allow information exchanges between nations. This form of agreement was
started in 1983 with low or no-tax jurisdictions for a time when a comprehensive tax treaty
addressing issues of double taxation would be unnecessary. TIEAs provide for exchange of
information in both civil and criminal actions only when one government formally asks another
government for particular information regarding a specific taxpayer. The U.S. also has
60 MLATs that are bilateral treaties for criminal matters that seek to improve the effectiveness of
judicial assistance and to regularize and facilitate procedures. Because most U.S. tax matters are
handled in civil rather than criminal proceedings, this approach severely restricts tax information
exchanges between the two countries. Finally, the U.S. has nearly 60 Tax Treaties23 in force with
foreign countries.
Taken together, these initiatives should increase the capacity and capability to address the
international tax gap. However, more tax administration tools are needed to leverage these
efforts. In recent years, various Congressional committees held hearings and developed
legislative proposals that would benefit the IRS’s efforts to reduce the international tax gap.
Congressional Hearings and Legislative Proposals: Congressional hearing and legislative
proposals regarding U.S. international taxation in recent years consisted of two focuses. One
focus stressed fundamental reform of the U.S. tax system to encourage long-term U.S. global
competitiveness. The other focus sought solutions for closing loopholes in the current
international tax system to eliminate abuses and reduce the international tax gap. A summary of
the hearings and proposals follows.
On June 22, 2006, the Subcommittee on Select Revenues of the House Ways and Means
Committee held a hearing on the Impact of International Tax Reform on U.S. Competitiveness.
Then-Chairman Congressman Dave Camp (R-MI) stated:
         The current U.S. international tax system has been characterized as one that distorts
         business decisions and inhibits the competitiveness of U.S. business abroad. This
         hearing will provide us the opportunity to understand how the current international tax
         system impacts the competitiveness of U.S. companies operating abroad and to evaluate
         how this system can be reformed and to stimulate job creation at home.24


23
   Under these treaties, residents of foreign countries are taxed at a reduced rate or are exempt from U.S. taxes on
certain types of income they receive from sources within the U.S. Under these same treaties, residents or citizens of
the U.S. are taxed at a reduced rate, or are exempt from foreign taxes on certain items of income they receive from
sources within foreign countries. U.S. tax treaties also contain provisions for information exchange, and many
contain provisions for automatic exchange of information in the form of sharing income information.
24
   U.S. House of Representatives Committee on Ways and Means, Subcommittee on Select Revenue Measures.
2006. Hearing on the Impact of International Tax Reform on U.S. Competitiveness. Washington, D.C. June 22.
Accessed online at: http://waysandmeans.house.gov/hearings.asp?formmode=view&id=5303
                                                                                                            Page 13
                    A Combination of Legislative Actions and Increased IRS
                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                 Dollar U.S. International Tax Gap



The hearing collected testimony from witnesses describing the obstacles the current U.S. tax
system creates for U.S. international business competitiveness in the global economy and how
the system should be reformed.
On August 1, 2006, the Senate’s Permanent Subcommittee on Investigations of the Committee
on Homeland Security and Governmental Affairs held a hearing on Tax Haven Abuses: The
Enablers, The Tools and Secrecy and released its staff’s report.25 Through a series of case
histories, the hearing explored the role of financial professionals, tax attorneys, accountants,
bankers, brokers, corporate service providers, and trust administrators in aggressively promoting
offshore tax haven use to U.S. citizens as a means to avoid taxes and creditors. The case
histories illustrated the use and operation of offshore trusts and corporations to circumvent U.S.
tax, securities, and anti-money laundering laws.
As a direct result of the hearing, in February 2007, the Committee on Homeland Security and
Governmental Affairs referred the Stop Tax Haven Abuse Act (S. 681) to the Senate Finance
Committee to reduce the international tax gap, improve compliance, and reduce the abuses
associated with tax havens. The proposed legislation would:
     •   Close loopholes by establishing legal presumptions against the validity of transactions
         involving offshore secrecy jurisdictions;
     •   Impose restrictions on foreign jurisdictions, financial institutions, or international
         transactions that are of primarily money laundering concerns or that impede U.S. tax
         enforcement;
     •   Increase the period for the IRS review of tax returns involving offshore secrecy
         jurisdictions;
     •   Require tax withholding agents and financial institutions to report certain information
         about beneficial owners of foreign-owned financial accounts and accounts established in
         offshore secrecy jurisdictions; and
     •   Disallow tax advisor opinions validating in offshore secrecy jurisdictions.
On June 17, 2008, The Heroes Earnings Assistance and Relief Tax Act of 200826 became law. It
contained a new expatriation tax that applies to individuals who expatriate from the U.S. on or
after enactment. The Senate Finance Committee intended to tighten the rules so that certain high
net worth individuals cannot renounce their U.S. citizenship or terminate their long-term U.S.
residency in order to avoid U.S. taxes. Congress expects that the new expatriation rules will
raise $411 million over the next 10 years.

25
   U.S. Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations. 2006. Tax Haven Abuse: The Enablers, The Tools and Secrecy. Washington D.C. August 1.
Accessed online at: http://hsgac.senate.gov/public/_files/TAXHAVENABUSESREPORT8106FINAL107.pdf
26
   P.L. 110-245 (2008).
                                                                                                  Page 14
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



On June 26, 2008, the Senate Finance Committee explored how the U. S. taxes foreign direct
investment in the U.S. and U.S. direct investment overseas under the current tax system and
possible alternatives for reform. The hearing examined the advantages and disadvantages of
different types of tax regimes along with the impact of international transfer pricing. Also
distributed at the hearing was a July 25, 2008, analysis by the Joint Committee on Taxation.27
Additionally, the Senate’s Permanent Subcommittee on Investigations and the Senate Finance
Committee both held hearings in July 2008 advocating more tools for the IRS to combat offshore
tax evasion. On July 17, 2008, the Senate’s Permanent Subcommittee on Investigations held a
hearing on Tax Haven Banks and U.S. Tax Compliance. The hearing examined how financial
institutions located in offshore tax havens facilitated the movement of funds offshore from the
U.S. that, in some instances, resulted in tax evasion and or other misconduct by U.S. clients. The
hearing also explored how U.S. domestic and international tax enforcement efforts could be
strengthened.
On July 24, 2008, the Senate Finance Committee held hearings on The Cayman Islands and
Offshore Tax Issues. At the hearing, the GAO released a report28 on its investigation, focused on
Ugland House in the Cayman Islands, whose sole physical occupant is the international law firm
Maples and Calder, but which serves as a registered address for 18,857 business entities. During
the hearing, Senate Finance Committee Chairman Senator Max Baucus (D-MT) announced that
he and Senator Charles Grassley (R-IA) planned to introduce six new measures to curb offshore
tax evasion that included:
     1. Lengthening the statute of limitations for prosecuting individuals who fail to report
        foreign bank accounts.
     2. Giving the IRS more authority to enforce reporting requirements.
     3. Clarifying information that must be reported.
     4. Requiring the reports to be filed with individual and corporate tax returns.
     5. Revising the definition of ownership to include beneficial ownership of a corporation.
     6. Including the reports under a tax code section ensuring that when taxpayers do file the
        information, the statue of limitations will not expire until three years afterward.




27
   See the Joint Committee on Taxation analysis Economic Efficiency and Structural Analysis of Alternative U.S.
Tax Policies for Foreign Direct Investment, (Reference Number, JCX-55-08, June 25, 2008).
28
   See the GAO audit report CAYMAN ISLANDS: Business and Tax Advantages Attract U.S. Persons and
Enforcement Challenges Exist, (Reference Number GAO-08-778, July 2008).
                                                                                                         Page 15
                    A Combination of Legislative Actions and Increased IRS
                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                 Dollar U.S. International Tax Gap



Also distributed at the hearing was a July 23, 2008, analysis prepared by the Joint Committee on
Taxation.29
On September 11, 2008, the Committee on Homeland Security and Governmental Affairs,
Permanent Subcommittee on Investigations held a hearing on Dividend Tax Abuse: How
Offshore Entities Dodge Taxes on U.S. Stock Dividends. The hearing examined how U.S.
financial institutions designed, marketed, and implemented transactions that repeatedly enabled
foreign taxpayers, including offshore hedge funds, to evade millions of dollars of U.S.
withholding taxes on U.S. stock dividends. The report accompanying the hearing
recommended:30
     •   End offshore Dividend Tax Abuse. Congress should end offshore dividend tax abuse
         by enacting legislation to make it clear that non-U.S. persons cannot avoid U.S. dividend
         taxes by using a swap or stock loan to disguise dividend payments.
     •   Take Enforcement Action. The IRS should complete its review of dividend-related
         transactions and take civil enforcement actions against taxpayers and U.S. financial
         institutions that knowingly participated in abusive transactions aimed at dodging U.S.
         taxes on stock dividends.
     •   Strengthen Regulations on Equity Swaps. To stop misuse of equity swap transactions
         to dodge U.S. dividend taxes, the IRS should issue a new regulation to make dividend
         payments under equity swap transactions taxable to the same extent as U.S. stock
         dividends.
     •   Strengthen Stock Loan Regulations. To stop misuse of stock loan transactions to
         dodge U.S. dividend taxes, the IRS should immediately meet its 1997 commitments to
         issue a new regulation on the tax treatment of substitute dividend payments between
         foreign parties to make clear that inserting an offshore entity into a stock loan transaction
         does not eliminate U.S. tax withholding obligations.
Conclusion
The IRS has not developed an estimate of the international tax gap, nor is there any intention to
develop an NRP type estimate. However, the IRS is making international tax compliance a
strategic priority. Many actions have been planned or implemented that should increase the IRS’
capability and capacity to enhance international tax administration. Beyond the IRS’ efforts, the
Congress is identifying ways to balance a fundamental reform of the U.S. tax system to

29
   See the Joint Committee on Taxation analysis Selected Issues Relating to Tax Compliance With Respect to
Offshore Accounts and Entities, (Reference Number, JCX-65-08, July 23, 2008).
30
   Dividends, U.S. Senate, Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations. 2008. Dividend Tax Abuse: How Offshore Entities Dodge Taxes on U.S. Stock. Washington, D.C.
September 11. Accessed online at:
http://hsgac.senate.gov/public/_files/REPORTDividendTaxAbuseFINAL910080.pdf
                                                                                                  Page 16
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap



encourage long-term U.S. global competitiveness and to find solutions for closing loopholes in
the current international tax system to eliminate abuses and reduce the international tax gap. A
combination of increased IRS capability and capacity and legislative solutions should help to
reduce the international tax gap. We have no recommendations for the findings presented in this
report.




                                                                                        Page 17
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap



                                                                                       Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objective of this review was to evaluate the accuracy and reliability of estimates of
the size of the U.S. international tax gap, determine whether the IRS is planning to develop its
own measurement, and identify the efforts the IRS has underway to reduce it.
To accomplish our objective, we relied extensively on interviews, information studies, and
internal reports from the IRS. To accomplish our objective, we:
I.     Identified estimates of the potential size of the U.S. international tax gap.
       A. Interviewed IRS officials regarding the IRS estimate of the $40 billion international
          tax gap described in Commissioner Rossotti’s letter to Senators Grassley and Baucus
          on March 22, 2002, the information used, and how it was derived.
       B. Interviewed attorney Jack Blum regarding his estimate of a $70 billion international
          tax gap, the information used, and how it was derived.
       C. Interviewed Professor Reuven Avi-Yonah regarding an estimate of the $50 billion
          international tax gap, the information used, and how it was derived.
       D. Interviewed IRS officials in the Research, Analysis, and Statistics Division regarding
          the lack of a periodic estimate of the international tax gap.
II.    Determined what actions and resources the IRS is applying in its efforts to reduce the
       international tax gap.
       A. Determined what action the IRS is taking as part of the Service-wide Approach to
          International Tax Administration through review of IRS internal monitoring reports.
       B. Interviewed IRS officials from the Office of the Deputy Commissioner, International,
          regarding actions completed and underway as part of the IRS Service-wide Approach
          to International Tax Administration.
       C. Determined the number of Tax Information Exchange Agreements (TIEAs) made
          from FY 2001 through FY 2007.
       D. Determined what accomplishments the Joint International Tax Shelter Information
          Centre (JITSIC) has publicized since it creation in FY 2004.
       E. Determined what actions the IRS is initiating to address the U.S. international tax gap
          as part of its August 2, 2007 plan, Reducing the Federal Tax Gap: A Report on


                                                                                           Page 18
          A Combination of Legislative Actions and Increased IRS
       Capability and Capacity Are Required to Reduce the Multi-Billion
                       Dollar U.S. International Tax Gap



   Improving Voluntary Compliance, in response to Congressional pressure regarding
   the overall tax gap.
F. Determined what actions were proposed by the Congress to address the problems of
   tax havens and the U.S. international tax gap.




                                                                             Page 19
                 A Combination of Legislative Actions and Increased IRS
              Capability and Capacity Are Required to Reduce the Multi-Billion
                              Dollar U.S. International Tax Gap



                                                                  Appendix II

                Major Contributors to This Report

Phil Shropshire, Director
Earl Charles Burney, Lead Auditor
Amanda Fila, Economist




                                                                        Page 20
                 A Combination of Legislative Actions and Increased IRS
              Capability and Capacity Are Required to Reduce the Multi-Billion
                              Dollar U.S. International Tax Gap



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner Services and Enforcement SE
Chief Counsel CC
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business and Self-Employed Division SE:S
Associate Chief Counsel (International) CC:INTL
Deputy Commissioner, Large and Mid-Size Business Division (Operations) SE:LM
Deputy Commissioner, Large and Mid-Size Business Division (International) SE:LM:IN
Deputy Commissioner, Small Business and Self-Employed Division (SE:S)
Chief, Appeals AP
National Taxpayer Advocate TA
Director, Office of Research, Analysis and Statistics RAS
Director, National Research Program RAS:NRP
Director, Treaty Administration & International Coordination SE:LM:IN
Director, International Compliance, Strategy & Policy SE:LM:IN
Director, Pre-Filing and Technical Guidance SE:LM:PFTG
Director, Research and Workload Identification SE:LM:RWI
Director, Examination SE:S:E
Director, Abusive Transaction SE:S:E:AT
Director, Research SE:S:R
Director, Office of Legislative Affairs CL:LA
Audit Liaisons:
       Commissioner C
       Chief Counsel CC
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business and Self-Employed Division SE:S




                                                                                     Page 21
                   A Combination of Legislative Actions and Increased IRS
                Capability and Capacity Are Required to Reduce the Multi-Billion
                                Dollar U.S. International Tax Gap



                                                                                  Appendix IV

                        Service-wide Approach to
                    International Tax Administration

The IRS will improve tax administration to deal more effectively with the increase of
globalization of individual and business taxpayers. This will be accomplished through Service-
wide cross-functional cooperation in addressing emerging international issues. The priority will
be to improve voluntary compliance with the international tax provisions and to reduce the tax
gap attributable to international transactions. Our approach to international tax administration
includes the following components:
Strategic Goal 1: Improve Taxpayer Service
International tax law is extremely complex. Providing international taxpayers and taxpayers in
the U.S. territories (American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
U.S. Virgin Islands) with assistance and clear and accurate information before they file their tax
returns helps avoid unintentional errors and reduces unnecessary contacts afterwards. To
achieve this, we will improve service options for international/U.S. territories taxpayers, enhance
outreach, provide tools for earlier certainty on complex issues, and strive for burden reduction in
the international/U.S. territories tax law arena.
Strategic Initiatives:
    A. Enhance customer service options for international/U.S. territories taxpayers to
       encourage voluntary compliance with complex international/U.S. territories tax
       laws.
    B. Deliver targeted education and outreach to taxpayers with international/U.S.
       territories transactions and enhance our partnerships with tax practitioners
       involved in the preparation of international/U.S. territories returns.
    C. Explore opportunities for expanded e-filing of international/U.S. territories forms.
    D. Identify opportunities for burden reduction through forms revisions, legislative
       proposals, and procedural changes.
    E. Provide earlier certainty to taxpayers on international/U.S. territories tax issues
       through pre-filing tools and achieving greater currency of audits.
    F. Contribute to identifying and developing guidance on priority international issues.



                                                                                           Page 22
                   A Combination of Legislative Actions and Increased IRS
                Capability and Capacity Are Required to Reduce the Multi-Billion
                                Dollar U.S. International Tax Gap



Strategic Goal 2: Enhance Enforcement of Tax Laws
As globalization continues, tax planning is increasingly focused on minimizing the worldwide
effective tax rate. In this context, international/U.S. territories’ non-compliance is a significant
area of concern and focus. We are challenged by a lack of information reporting on many cross-
border transactions. The ease of utilizing complex international structures and cross-border
transactions results in constantly evolving compliance issues. To properly identify, address, and
pursue such emerging issues, we will strengthen reporting requirements; enhance IRS access to
international data; ensure adherence to professional standards by tax professionals; and increase
industry and global issue focus by aligning resources to cases and issues with the highest
compliance risk.
Strategic Initiatives:
    A. Improve examination coverage, identify emerging compliance issues, and increase
       issue specialization to address complex transactions.
    B. Strengthen our information reporting and withholding systems to ensure that we
       receive the appropriate information and use it effectively in our compliance and
       withholding tax efforts.
    C. Improve cooperation with treaty partners to identify and address inappropriate tax
       arbitrage and abusive schemes, achieve greater transparency on cross-border
       transactions, and identify and address process improvements in the mutual
       agreement program.
    D. Encourage tax professionals to adhere to professional standards and provide
       effective oversight to ensure accountability of professional responsibilities.
    E. Detect and deter financial criminal activity and abusive transactions that involve
       offshore entities and cross-border transactions.
Strategic Goal 3: Modernize the IRS through its People, Processes, and Technology
As the flow of trade and capital moves more easily across borders, the global marketplace is
developing at an ever increasing rate. The fast pace of change in the global economy requires an
equally fast pace of change within our organization. We must strategically manage resources,
associated business processes, and technology systems to effectively and efficiently meet
international service and enforcement missions. To achieve this, we will improve our resource
capabilities to leverage international expertise throughout the IRS and modernize information
systems to improve service and enforcement.
Strategic Initiatives:
    A. Identify workforce skills needed to address emerging international/U.S. territories
       issues and develop a training plan to address the needed skills.

                                                                                            Page 23
              A Combination of Legislative Actions and Increased IRS
           Capability and Capacity Are Required to Reduce the Multi-Billion
                           Dollar U.S. International Tax Gap



B. Provide IRS employees the tools needed to respond accurately and in a timely
   manner to taxpayer inquiries.
C. Improve the systems for capturing and utilizing information reported by treaty
   partners to enhance compliance of U.S. taxpayers.
D. Identify opportunities to improve international/U.S. territories’ forms and the
   related processing systems to ensure that appropriate information is available for
   risk assessment and issue identification.
E. Assess systems and resources devoted to referrals of international/U.S. territories
   issues to ensure that high risk issues are addressed in a timely manner.
F. Identify and develop baselines and measures to better assess the international/U.S.
   territories’ tax gap and our progress in reducing it.




                                                                                 Page 24
                    A Combination of Legislative Actions and Increased IRS
                 Capability and Capacity Are Required to Reduce the Multi-Billion
                                 Dollar U.S. International Tax Gap



                                                                                             Appendix V

                       Selected International Reports

Domestic and Foreign Controlled Corporations
Tax Administration: Comparison of the Reported Tax Liabilities of Foreign and U.S.-Controlled
Corporations, GAO, Reference Number GAO-08-957, July 2008.
International Taxation: Taxes of Foreign- and U.S.-Controlled Corporations, GAO, Reference
Number GAO/GGD-93-112FS, June 1993.
Information Returns
Automating the Penalty-Setting Process for Information Returns Related to Foreign Operations
and Transactions Shows Promise, but More Work Is Needed, TIGTA, Reference Number 2006-
30-075, May 2006.
Compliance Opportunities Exist for the Internal Revenue Service to Use Foreign Source Income
Data, TIGTA, Reference Number 2005-30-101, July 2005.
Controls Over the Identification and Selection of Foreign Controlled Corporations for
Examination Need Improvement, TIGTA, Reference Number 2001-30-119, July 2001.
Program Improvements Are Needed to Encourage Taxpayer Compliance in Reporting Foreign
Sourced Income, TIGTA, Reference Number 2001-30-052, March 2001.
Review of Service Efforts to Ensure Compliance of Taxpayers Receiving Foreign Source Income,
IRS Internal Audit,1 Reference Number 072208, April 2, 1997.
International Compliance Activities
Dividend Tax Abuse: How Offshore Entities Dodge Taxes on U.S. Stock, U.S. Senate Committee
on Homeland Security and Government Affairs, Permanent Subcommittee on Investigations.
Washington D.C. September 11, 2008.
Selected Issues Relating to Tax Compliance With Respect to Offshore Accounts And Entities,
Joint Committee on Taxation, Reference Number JCX-65-08, July 23, 2008.
Economic Efficiency and Structural Analysis of Alternative U.S. Tax Policies for Foreign Direct
Investment, Joint Committee on Taxation, Reference Number JCX-55-08, June 25, 2008.



1
 As a consequence of the IRS Restructuring and Reform Act of 1998, the IRS Office of Audit became the Office of
Audit of the Treasury Inspector General for Tax Administration (TIGTA) on January 18, 1999.
                                                                                                      Page 25
                  A Combination of Legislative Actions and Increased IRS
               Capability and Capacity Are Required to Reduce the Multi-Billion
                               Dollar U.S. International Tax Gap



Actions Are Needed to Control Risks With International Transactions Reported on Corporate
Income Tax Returns, TIGTA, Reference Number 2008-30-114, May 30, 2008.
Opportunities Exist to Enhance the International Field Assistance Specialization Program,
TIGTA, Reference Number 2000-30-130, September 2000.
Tax Administration: Information on IRS’s International Tax Compliance Activities, GAO,
Reference Number GAO/GDD-94-96FS, June 1994.
International Transfer Pricing
The Controls for Examination Processes for Industry Cases With International Transfer Pricing
Issues Can Be Improved, TIGTA Reference Number 2004-30-133, September 2004.
Current Trends in the Administration of International Transfer Pricing by the Internal Revenue
Service, TIGTA, Reference Number 2003-30-174, September 2003.
International Taxation: Transfer Pricing and Nonpayment of Tax, GAO, Reference Number
GAO/GGD-95-101, April 1995.
International Taxation: Problems Persist in Determining Effects of Intercompany Prices, GAO,
Reference Number GAO/GGD-92-89, June 1992.
Tax Havens
Cayman Islands: Business and Tax Advantages Attract U.S. Persons and Enforcement
Challenges Exist, GAO, Reference Number GAO-08-778, July 2008.
Tax Haven Banks and U.S. Tax Compliance, Permanent Subcommittee on Investigations, U.S.
Senate Committee on Homeland Security and Government Affairs, Permanent Subcommittee on
Investigations, Washington D.C. July 17, 2008.
Additional Actions Are Needed to Effectively Address the Tax Gap, TIGTA, Reference Number
2008-30-094, April 23, 2008.
Tax Administration: Additional Time Needed to Complete Offshore Tax Evasion, GAO,
Reference Number GAO-07-237, March 2007.
Tax Haven Abuse: The Enablers, The Tools and Secrecy, U.S. Senate Committee on Homeland
Security and Government Affairs, Permanent Subcommittee on Investigations. Washington D.C.
August 1. 2006
International Taxation: Tax Haven Companies Were More Likely to Have a Tax Cost Advantage
in Federal Contracting, GAO, Reference Number GAO-04-856, June 2004.




                                                                                        Page 26
                     A Combination of Legislative Actions and Increased IRS
                  Capability and Capacity Are Required to Reduce the Multi-Billion
                                  Dollar U.S. International Tax Gap



                                                                                              Appendix VI

               International Tax Gap and Components

                        Component                                        Low Estimate High Estimate
International Transfer Pricing                                             $2.8 billion1 $53.0 billion2
Offshore Noncompliance of U.S. Taxpayers                                  $40.0 billion3 $70.0 billion4
Noncompliance of Foreign Taxpayers with Income from an
    Effectively Connected Trade or Business in the U.S.                     Unknown              Unknown
Noncompliance of Foreign Taxpayers with Passive
    Investment Activities in the U.S.                                     Unknown              Unknown
Tax Shelters with Tax Haven Components                                    Unknown              Unknown
   Total International Tax Gap                                           UNKNOWN              UNKNOWN

    Known Estimates of Total International Tax Gap                          $42.8 billion      $123.0 billion
Source: TIGTA Analysis of Likely Components of the International Tax Gap with Available Estimates.




1
  U.S. Department of the Treasury, IRS, Report on the Application and Administration of Section 482; 1999.
2
  U.S. Trade with the World: An Estimate of 2001 Lost U.S. Federal Income Tax Revenues Due to Over-Invoiced
and Under-Invoiced Exports, by Professors Simon J. Pak, Ph.D. of Penn State University – Great Valley, and John
S. Zdanowicz, Ph.D. of Florida International University.
3
  Rossotti, Charles O. 2004. Letter to Senators Charles Grassley and Max Baucus. March 22.
4
  Sullivan, Martin A. 2004. U.S. citizens hide hundreds of billions in Cayman accounts. Tax Notes. Vol. 103, p.956
                                                                                                        Page 27
